TN

suumme  C'QCKLE

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B te efs contact@cocklelegalbriefs.com
St. 1923,
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-667
MICHAEL BAKER,
Petitioner,
Vv.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(6), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 1798 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 6th day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL HOTARY-State of Nebraska
RENEE J. GOSS Kense. ). theoo OQudraw Ke Ghhe
My Comm. Exp. September &, 2023
Notary Public

Affiant

39589
